IN THE
SUPREME COURT OF THE UNITED STATES
)
JOSEPH R. BIDEN, JR., PRESIDENT OF THE )
UNITED STATES, ET AL.,
)
Petitioners, )
)
v.
)
STATE OF TEXAS, ET AL.,
)
Respondents. )
)

No. 21A21
On Application for a Stay of the
Injunction Issued by the United States
District Court for the Northern District of
Texas and for an Administrative Stay

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the accompanying
amicus curiae brief of the Immigration Reform Law Institute in the above-captioned
matter contains 2,855 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 24, 2024.

/s/ Lawrence J. Joseph
Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: (202) 355-9452
Email: lj@larryjoseph.com
Counsel for Amicus Curiae

